                              Report Distribution List
                           Control No. ED-OIG/A05-A0025

                                                                                 Copies
Action Officials

       Greg Woods, Chief Operating Officer                                         1
       Student Financial Assistance
       Department of Education
       ROB-3, Room 4004
       7th and D Streets, SW
       Washington, DC 20202-5132

       Ms. Maureen McLaughlin                                                      1
       Deputy Assistant Secretary for Policy, Planning and Innovation
       Office of Postsecondary Education
       Room 7115
       1990 K Street, NW
       Washington, DC 20006

Other ED Offices

       Chief of Staff, Terry Abbott                                                1

       Director, Budget Service, Thomas P. Skelly                                  1

       Supervisor Post Audit Group, Office of the Chief Financial Officer          1

       General Manager for Financial Partners, Student Financial Assistance        1

       Chief Financial Officer, Student Financial Assistance                       1

       Partner Services Director, Student Financial Assistance                     1

       Northern Region Partner Services Director, Student Financial Assistance     1

       Office of Public Affairs                                                    1

OIG

       Inspector General                                                           1
       Deputy Inspector General                                                    1
       Assistant Inspector General for Investigation                               1
       Assistant Inspector General for Audit                                       1
       Assistant Inspector General for Audit, Analysis and Inspection              1
       Deputy Assistant Inspector General for Audit                                1
       Director, Student Financial Assistance, Advisory and Assistance Team        1
       Regional Inspectors General for Audit                                     1 each
